U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Frederick D. Darrington v. United States, No. 20-6840
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 7,
2021, and placed on the docket on January 12, 2021. The government’s response is now due, after
one extension, on March 15, 2021. We respectfully request, under Rule 30.4 of the Rules of this
Court, a further extension of time to and including April 14, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6840
DARRINGTON, FREDERICK D.
USA

DAN GOLDBERG
FEDERAL PUBLIC DEFENDER
FEDERAL PUBLIC DEFENDER
1000 WALNUT SUITE 600
KANSAS CITY, MO 64106
816-471-8282
DAN_GOLDBERG@FD.ORG

